TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Procedures Are Needed to Improve the
                    Accounting and Monitoring of Restitution
                    Payments to Prevent Erroneous Refunds


                                        January 27, 2012

                               Reference Number: 2012-30-012




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 7 = Pre-Decision/Privileged Material



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website       | http://www.tigta.gov
                                                  HIGHLIGHTS


PROCEDURES ARE NEEDED TO                             resulted in the issuance of erroneous refunds to
IMPROVE THE ACCOUNTING AND                           three defendants and 16 taxpayers totaling
MONITORING OF RESTITUTION                            approximately $543,000. In addition, the IRS’s
PAYMENTS TO PREVENT ERRONEOUS                        systems for monitoring defendants’ compliance
                                                     with the conditions of probation and restitution
REFUNDS
                                                     are neither effective nor reliable. TIGTA’s
                                                     analysis of data used to monitor defendants
Highlights                                           identified inaccurate tax account data totaling
                                                     approximately $330,000 for 25 defendants.
                                                     TIGTA also determined that Criminal
Final Report issued on January 27, 2012              Investigation inconsistently used the refund
                                                     offset procedure to collect restitution payments.
Highlights of Reference Number: 2012-30-012          Finally, the IRS was not always granted
to the Internal Revenue Service Chief, Criminal      restitution by the courts in cases where it
Investigation.                                       appeared to be warranted.
IMPACT ON TAXPAYERS                                  WHAT TIGTA RECOMMENDED
When a defendant pleads guilty or is found guilty    TIGTA made several recommendations to the
of a tax-related crime, the terms of a defendant’s   Chief, Criminal Investigation, to address internal
sentence can include various combinations of         control weaknesses regarding accurate
imprisonment, probation, and monetary                accounting for restitution payments, including
penalties such as fines and restitution.             preventing the issuance of erroneous refunds.
Probation and restitution act to discourage          In addition, TIGTA made recommendations to
similar criminal violations by others. However,      establish a single database for monitoring
the perception has grown that many defendants,       defendants, revise guidelines for earlier
despite being convicted of violating the tax laws,   notification to Criminal Investigation of the status
are escaping all responsibility for the payment of   of convicted individuals’ adherence to conditions
the taxes associated with the offenses they          of probation and restitution, and obtain the IRS
committed. This perception can erode                 Office of Chief Counsel’s opinion on the use of
taxpayers’ confidence in the IRS’s ability to        refund offsets. Finally, Criminal Investigation
collect taxes from defendants and weakens its        should document in its investigative files why
administration of all tax laws.                      restitution was not included in sentences to
WHY TIGTA DID THE AUDIT                              identify factors that hinder the IRS being granted
                                                     restitution.
This audit was initiated as part of our Fiscal
Year 2010 Annual Audit Plan and addresses the        IRS management agreed with our
major management challenges of Tax                   recommendations and stated that corrective
Compliance Initiatives and Erroneous and             actions are planned or have already been taken
Improper Payments and Credits. The overall           to address them.
objective of this review was to determine
whether defendants convicted of tax-related
crimes are held responsible for the payment of
the taxes associated with the offenses they
committed.
WHAT TIGTA FOUND
The IRS does not have effective internal controls
to ensure defendants convicted of tax-related
crimes comply with conditions of probation and
restitution. Specifically, the IRS’s inability to
properly account for restitution payments
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 27, 2012


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Procedures Are Needed to Improve the
                             Accounting and Monitoring of Restitution Payments to Prevent
                             Erroneous Refunds (Audit #201030031)
 This report presents the results of our review to determine whether defendants convicted of
 tax-related crimes are held responsible for the payment of the taxes associated with the offenses
 they committed. This audit was included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenges of Tax Compliance Initiatives and Erroneous and
 Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                         Procedures Are Needed to Improve the Accounting and
                    Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Weaknesses in the Procedures to Account for Restitution
          Payments Increased the Risk of Erroneous Refunds .................................... Page 4
                    Recommendations 1 and 2: .............................................. Page 9

                    Recommendations 3 through 5:......................................... Page 10

                    Recommendation 6:........................................................ Page 11

          Steps Can Be Taken to Improve the Monitoring of
          Defendants’ Adherence to Conditions of Probation and
          Restitution ..................................................................................................... Page 11
                    Recommendation 7:........................................................ Page 15

                    Recommendations 8 through 10: ....................................... Page 16

          Use of Tax Refund Offsets to Collect Restitution Is
          Inconsistently Applied to Defendants ........................................................... Page 17
                    Recommendation 11: ...................................................... Page 17

          Restitution for Unpaid Taxes Was Not Always Granted in
          Sentences Where It Appeared to Be Warranted ........................................... Page 18
                    Recommendations 12 and 13: ........................................... Page 19

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Outcome Measures............................................................... Page 26
          Appendix V – Accounting Unit’s Process to Account for Restitution
          Payments ....................................................................................................... Page 28
             Procedures Are Needed to Improve the Accounting and
        Monitoring of Restitution Payments to Prevent Erroneous Refunds



Appendix VI – Audit Alert Memorandum – ***************1**************
******************1********** ............................................................ Page 29
Appendix VII – Audit Alert Memorandum – ****************1***********
*********************1*******.............................................................. Page 31
Appendix VIII – Glossary of Terms ............................................................. Page 33
Appendix IX – Management’s Response to the Draft Report ...................... Page 36
              Procedures Are Needed to Improve the Accounting and
         Monitoring of Restitution Payments to Prevent Erroneous Refunds




                          Abbreviations

CI                  Criminal Investigation
CIMIS               Criminal Investigation Management Information System
DOJ                 Department of Justice
FY                  Fiscal Year
I.R.C.              Internal Revenue Code
IRM                 Internal Revenue Manual
IRS                 Internal Revenue Service
PII                 Personally Identifiable Information
SB/SE               Small Business/Self-Employed
SSN                 Social Security Number
TIGTA               Treasury Inspector General for Tax Administration
U.S.                United States
USAO                United States Attorney’s Office
W&I                 Wage and Investment
                      Procedures Are Needed to Improve the Accounting and
                 Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                            Background

To promote compliance with tax laws and confidence in the United States’ (U.S.) tax
administration system, the Internal Revenue Service’s (IRS) Criminal Investigation (CI)
conducts investigations of potential tax-related crimes that violate the Internal Revenue Code
(I.R.C.).1 When CI concludes that a tax-related crime has occurred and prosecution is warranted,
it forwards the results of its investigation to the Department of Justice (DOJ) Tax Division.
The ultimate goal of every criminal prosecution is not merely to obtain a conviction, but also to
obtain a sentence sufficient to discourage similar criminal violations by others. When a
defendant2 pleads guilty or is found guilty of a tax-related crime, the terms of the sentence can
include various combinations of imprisonment, probation, supervised release, special tax-related
provisions, and monetary penalties such as fines and restitution. Defendants can be ordered to
pay restitution to compensate victims for their loss, and in tax-related crimes, the Federal
Government can be a victim due to the unpaid taxes from the criminal activity. The DOJ has
cited restitution as an important tool in reducing the Tax Gap in its Fiscal Years (FY) 2009 and
2010 Congressional Budget Justifications.
The IRS seeks restitution because it establishes some monetary obligation for the defendant at
the time of sentencing. However, restitution does not represent the defendant’s official tax
liability. In accordance with the I.R.C., a supplemental tax liability is established only when the
IRS completes an examination of an individual taxpayer’s records and makes a tax assessment.
Although restitution is not the official tax liability, it represents the defendant’s legal obligation
to pay a specified amount to the IRS and is an important tool in reducing the Tax Gap. Until the
IRS makes an official tax assessment, only the United States Attorney’s Office (USAO) may
enforce the collection of restitution ordered by the court. Generally, when restitution is ordered
as a condition of probation or supervised release, the obligation to pay restitution ceases when
the period of probation or supervised release expires. However, once the tax assessment has
been made, the IRS has a 10-year period to collect the assessed tax.
According to data provided by the IRS, during FYs 2007 through 2009, there were
3,234 tax-related investigations that resulted in sentences. Of these, 2,363 (73 percent) of the
sentences included tax-related conditions of probation and the remaining 871 (27 percent) had no
conditions of probation. In addition, 1,403 (43 percent) of the sentences included court-ordered
restitution totaling $673 million owed to the IRS. Figure 1 shows the amount of restitution


1
  See Appendix VIII for a glossary of terms.
2
  For the purposes of this report, the term “defendant” includes both individuals and tax return preparers who
pleaded guilty to or were convicted of a tax-related crime. The terms “convicted individual” and “convicted tax
return preparer” used later in the report refer only to that specific group.
                                                                                                           Page 1
                                        Procedures Are Needed to Improve the Accounting and
                                   Monitoring of Restitution Payments to Prevent Erroneous Refunds



ordered from FYs 2007 through 2009 has nearly tripled over the three-year period, which
supports that CI is communicating the importance of restitution to the DOJ and that the DOJ is
placing more emphasis on seeking restitution.
                                   Figure 1: Restitution Ordered in FYs 2007 Through 2009


                                  350
         In Millions of Dollars




                                                                    $310
                                  300
                                                      $246
                                  250
                                                                                    $673 Million
                                  200
                                                                                    Restitution
                                  150     $117                                      Ordered
                                  100
                                   50
                                    0
                                         FY 2007      FY 2008      FY 2009

      Source: Data from CI’s Criminal Investigation Management Information System (CIMIS).

In a March 2004 review, the Treasury Inspector General for Tax Administration (TIGTA)
reported that existing procedures within CI and the Small Business/Self-Employed (SB/SE)
Division did not effectively ensure defendants who did not comply with the terms of their
sentences were reported to the courts for appropriate legal action.3 For example, if a defendant
does not pay the restitution, the court may resentence the defendant to an extended period of
imprisonment or supervised release. Such court rulings discourage defendants from disposing of
assets rather than paying the IRS because they might face additional imprisonment.
In response to TIGTA’s FY 2004 audit report, the Chief, CI, stated that as a result of the
collective efforts of an IRS-DOJ Working Group (hereafter referred to as the Working Group),
initiatives would be leveraged to substantially improve the conditional probation reporting and
monitoring process. The Working Group consisted of representatives from the IRS’s Office of
Chief Counsel, the SB/SE Division, CI, and the DOJ. In an April 2004 paper,4 the Working
Group reported that the prohibition on directly assessing restitution as a tax was a significant
issue facing the IRS because it barred the IRS from using existing enforcement techniques to
collect restitution.



3
  TIGTA, Ref. No. 2004-10-060, Courts Are Not Always Notified When Criminals Fail to Comply With Their
Sentences to Settle Civil Tax Liabilities (March 2004).
4
  Restitution in Criminal Tax Cases – A Report and Recommendations Prepared by an IRS-DOJ Working Group
(April 1, 2004).
                                                                                                   Page 2
                     Procedures Are Needed to Improve the Accounting and
                Monitoring of Restitution Payments to Prevent Erroneous Refunds



On August 16, 2010, the President signed into public law an amendment to the I.R.C.5 that
allows orders of criminal restitution to be assessed in the same manner as if such amounts were a
tax. The IRS established multiple design and implementation teams consisting of representatives
from various internal stakeholder groups to develop guidance and procedures for this new
authority. The IRS estimated the implementation process would be completed in FY 2012.
Because the amendment is not retroactive, the design and implementation teams are not
developing procedures to change the process to record restitution ordered or payments received
for defendants sentenced before August 16, 2010.
The amendment to allow a tax assessment of restitution ordered is a significant opportunity for
the IRS to develop a coordinated, cross-functional process to account for restitution owed and
paid by defendants. Until the new guidance is put into effect, the IRS must continue to conduct
an examination of a defendant’s records to establish a tax assessment. However, even after these
procedures are put in place, the IRS will still need additional procedures to account for restitution
ordered and payments made by defendants before the enactment of the amendment.
This review was performed at the CI and SB/SE Division Headquarters Offices in
Washington, D.C., the CI and SB/SE Division functions in Los Angeles, California;
Plantation (Miami), Florida; and Philadelphia, Pennsylvania; the CI Scheme Development
Center in Ogden, Utah; and the Wage and Investment (W&I) Division Campus in
Kansas City, Missouri, during the period April 2010 through June 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 Firearms Excise Tax Improvement Act of 2010, Pub. L. No. 111-237, August 16, 2010, 124 Stat. 2497 (Section 3.
Assessment of Certain Criminal Restitution).
                                                                                                       Page 3
                       Procedures Are Needed to Improve the Accounting and
                  Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                     Results of Review

The laws and IRS regulations that apply to the accounting, payment, collection, and enforcement
of restitution are complex and technical in nature. Over the past several years, the IRS has
placed increased emphasis on using restitution to help ensure that defendants repay the IRS in
criminal tax cases and to deter future criminal violations of the I.R.C. However, the perception
has grown that many defendants, despite being convicted of violating the tax laws, are
nevertheless escaping all responsibility for the payment of the taxes associated with the offenses
for which they were convicted. This perception can erode taxpayers’ confidence in the IRS’s
ability to collect taxes from defendants and weakens its administration of all tax laws.
Based on the results of this review, the IRS does not have effective internal controls to ensure
defendants convicted of tax-related crimes are held responsible for paying taxes and adhering to
conditions of probation and restitution associated with the offenses they commit. The absence of
effective internal controls impaired the IRS’s ability to ensure there were adequate accounting
procedures and safeguards to prevent the issuance of erroneous refunds to defendants. In
addition, weaknesses in internal controls hindered the IRS’s efforts to monitor conditions of
probation and restitution, and CI’s use of the refund offset procedure to collect restitution
payments is inconsistent. Finally, the IRS was not always granted restitution by the courts in
cases where it appeared to be warranted.

Weaknesses in the Procedures to Account for Restitution Payments
Increased the Risk of Erroneous Refunds
Our review of a sample of transactions determined that internal controls were not in place to
prevent the IRS from issuing erroneous refunds due to systemic weaknesses in the accounting for
restitution payments. The Standards for Internal Control in the Federal Government requires
management to identify risks inherent in agency operations and enact internal controls to reduce
the risk of error, waste, or wrongful acts or to reduce the risk of those going undetected.6

Restitution payments were not always applied to tax liabilities of convicted
individuals
Before the enactment of the Firearms Excise Tax Improvement Act of 2010, the IRS was legally
prohibited from assessing the amount of restitution ordered on a convicted individual’s tax
account until a tax assessment was established through the examination process. However, the
examination process is almost always suspended during the criminal investigation and court

6
    Government Accountability Office, GAO/AIMD-00-21.3.1, (November 1999).
                                                                                           Page 4
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



proceedings. The suspension of the examination often resulted in a tax assessment not being
made until well after a convicted individual was sentenced. However, after sentencing, some
convicted individuals immediately begin to make restitution payments to the IRS. When this
happens, the payments cannot be applied to the convicted individual’s tax account until the
examination is completed and the tax assessment is established. These payments are deposited
to the Miscellaneous Revenue Account.
An analysis of restitution payments showed some restitution paid to the IRS over the years
remains credited to the Miscellaneous Revenue Account. Reasons for this include the length of
time it may take to complete an examination or, once the examination is completed, the W&I
Division’s Accounting Unit (hereafter referred to as the Accounting Unit), which processes all
restitution payments, is not always notified that an assessment has been made and restitution
payments should be moved to the convicted individual’s tax account.
To determine if the IRS completed the examinations, made the tax assessments, and properly
applied the payments to convicted individuals’ tax accounts, we selected a judgmental sample of
90 restitution payments made by convicted individuals from a population of 11,775 payments
received from defendants during FYs 2007 through 2009. Our research showed the 90 payments
were made by 62 convicted individuals. We reviewed each of the 62 convicted individuals’ tax
accounts and, as shown in Figure 2, found that for 15 (24 percent) of them, the IRS made a tax
assessment and the restitution payments had been fully credited.
                Figure 2: Results of Sample for Tax Assessment Made
                          and Restitution Payment Credited


                                                                         24 did not have tax
                                                                         assessments;
                                                                         theref ore, no payments
                                                                         could be credited.

                        23,                24,                           15 had tax
                        37%                39%                           assessments and
                                                                         restitution payments
                                                                         were f ully credited.

                                   15,                                   23 had tax
                                   24%                                   assessments but
                                                                         restitution payments
                                                                         were not or only
                                                                         partially credited.

         Source: TIGTA’s review of a sample of convicted individuals’ tax account data.




                                                                                                   Page 5
                      Procedures Are Needed to Improve the Accounting and
                 Monitoring of Restitution Payments to Prevent Erroneous Refunds



We also determined that CI did not always follow procedures to timely notify the Accounting
Unit when a convicted individual was ordered to pay restitution to the IRS. Our results showed
53 (85 percent) of the 62 convicted individuals’ sentencing information was not timely
forwarded to the Accounting Unit.
In FY 2010, CI required the use of the Form 14104, Notification of Criminal Restitution or Court
Ordered Payments Payable to the IRS,7 to notify the Accounting Unit that a defendant had been
sentenced and ordered to pay restitution. The instructions for Form 14104 state:
        It is crucial to notify all parties … [of this information] so that a proper assessment can
        be timely made, if it has not … already; collection can help monitor; and … [the
        accounting unit] can properly post incoming payments. In order for restitution payments
        to be applied to … tax liabilities, an assessment must be made. Otherwise the payments
        will be credited to a general account and could be refunded to the defendant if proper
        controls are not established.
However, there are no procedures requiring Accounting Unit employees to:
    •   Follow up with CI when a restitution payment was received for a defendant for whom the
        Accounting Unit had not been notified that restitution was ordered.
    •   Complete subsequent research to identify if a tax assessment had been made to a
        convicted individual’s tax account.
CI requires the use of Form 14104 and this is a good step toward improving the communication
with the Accounting Unit and other necessary IRS functions. Equally important is the need for
the Accounting Unit to follow up with CI and complete research to ensure restitution payments
are correctly applied to tax accounts. When these steps are not completed, the IRS cannot
effectively account for payments and monitor the defendant’s compliance with sentencing
ordered by the courts. This also prevents the IRS from being able to respond to defendants’
inquiries regarding their restitution balances. In addition, the IRS is unable to routinely and
accurately provide statements showing payments and outstanding restitution balances to
defendants.

Restitution payments were not always immediately associated with a defendant’s
tax account
The Accounting Unit receives restitution payments from the courts in the form of U.S. Treasury
checks. However, the IRS is not accurately accounting for defendant restitution payments
because a longstanding issue had not been resolved regarding the absence of Personally
Identifiable Information (PII), such as a full name and a Social Security Number (SSN). When a


7
 Form 14104 includes the defendant’s name, Social Security Number, total restitution ordered, the amount
attributed to specific tax years, and any payment schedule.
                                                                                                           Page 6
                      Procedures Are Needed to Improve the Accounting and
                 Monitoring of Restitution Payments to Prevent Erroneous Refunds



payment cannot be associated with a defendant, the Accounting Unit must deposit the funds into
a Miscellaneous Revenue Account with a payee designation of “unknown,” partial name, or
court docket number.8
The Working Group proposed restitution order language to help ensure the USAOs and the
courts, as well as the defendants, provide the PII needed for the IRS to properly process and
account for restitution payments. One provision in the language stipulates that with each
payment to the court, the defendant provide his or her name, SSN, court docket number, and a
request that the information be forwarded along with the payment to the IRS. In
September 2009, the IRS issued a letter to the Administrative Office of the U.S. Courts (hereafter
referred to as the Administrative Office) that included the following statement in an attempt to
reiterate the importance of ensuring the PII be included on all checks: “In order to ensure that
restitution payments are credited to the correct taxpayer account, it is important that the
taxpayer’s full name and the court docket number be included on the check....”
Our analysis of the Accounting Unit’s database of restitution payments received during
FYs 2007 through 2009 identified 3,379 (29 percent) of 11,775 payments still had “unknown”
captured in the SSN field. We selected a
judgmental sample of 83 payments from the
11,775 payments and determined that                    The IRS received 3,379 (29 percent) of
                                                     11,775 payments without sufficient PII to
63 (76 percent) of the payments did not have       credit payments to defendants’ tax accounts.
an SSN printed, and 32 (51 percent) of those
63 also did not have a full name printed.
During a visit to the Accounting Unit, we determined the absence of the PII on U.S. Treasury
checks continued to exist into FY 2010 because the IRS has been unable to convince the courts
to change its process for submitting restitution payments. In addition, the IRS has not developed
an effective alternative method for linking payments to defendants. The IRS stated that multiple
attempts had been made to encourage the Administrative Office to direct the district courts to
supply consistent and sufficient PII with payments. However, the Administrative Office advised
the IRS that SSNs would no longer be included on checks. This action was pursuant to the
recommendation of the Administrative Office’s General Counsel due to the growing emphasis in
recent years on preventing the disclosure of PII. In addition, a new accounting system limited
the printing space available on checks. While we understand the Administrative Office’s
position on eliminating PII, including more than the defendant’s name on checks will help the
IRS better associate the payment with the defendant to whom it should be credited.
The absence of sufficient defendant PII prevented the IRS from efficiently associating restitution
payments with defendants’ tax accounts. As a result, the Accounting Unit must use additional
employee resources to contact the applicable court to determine the defendant’s identity to

8
  See Appendix V for the IRS Accounting Unit’s process for recording and depositing restitution payments received
from the courts on behalf of defendants.
                                                                                                          Page 7
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



ensure the payment is moved from the Miscellaneous Revenue Account and credited to the
correct tax account.

Restitution payments credited to the Miscellaneous Revenue Account were not
adequately protected
The IRS does not have effective internal controls to prevent issuing erroneous refunds when it
receives restitution payments and a tax assessment has not yet been made to the convicted
individual’s tax account. For example, analysis of the 62 convicted individuals’ tax accounts
identified four who received erroneous refunds
totaling $282,470. In all four instances, the IRS
received the payments but had not made a tax                 The IRS issued erroneous
assessment to establish the tax liability. Shortly after   refunds  totaling $282,470 to
                                                            four convicted individuals.
the refunds were issued, ********1***********
*********************1********************
************************************1*****************************************
************************************1*************************************
************************************1****************************************
************************************1******.
On May 27, 2010, we issued a memorandum to CI regarding *****1**********************
***************************************1*************************************
**************************************1*************************************
*********1**********************.
Management Actions: *************************** ***1***************************
*********************************1********************************************
*********************************1********************************************
********************************1*********************************************
*********************************1********************************************
*********************************1********************************************
*********************************1******************************************
The Standards for Internal Control in the Federal Government requires management to separate
the key duties and responsibilities within a process of authorizing and reviewing transactions.
However, there is no requirement in the Internal Revenue Manual (IRM) that a manager review
and approve the transfer of payments from the Miscellaneous Revenue Account to a specific
defendant’s tax account. In addition, the IRS may systemically issue a refund if the restitution
payment is transferred to a defendant’s tax account that does not have a corresponding tax
liability. As early as FY 2004, CI has been aware of the risks associated with defendants being
issued erroneous refunds. For example, the Working Group acknowledged in its April 2004
paper that there had been instances of restitution payments being erroneously refunded to
defendants. In addition, CI’s June 30, 2010, Business Performance Review reflected the known

                                                                                          Page 8
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



risk of erroneous refunds: “...this amendment [the Legislative proposal to allow the IRS to
assess restitution as a tax signed into law on August 16, 2010] would provide IRS with a better
accounting of restitution payments and will help ensure that erroneous refunds are not
disseminated to defendants.”
The passing of the legislation allowing the IRS to assess restitution as a tax will provide better
accounting of restitution payments and should reduce the risk of erroneous refunds. However,
passing the legislation does not eliminate the need for the IRS to ensure controls are in place to
provide oversight of the millions of dollars in restitution payments that are susceptible to
accounting and transfer errors and to prevent the issuance of erroneous refunds. Further,
improving the communication among CI and IRS functions responsible for making tax
assessments and processing restitution payments could reduce the use of staff resources required
to research and monitor restitution payments deposited in the Miscellaneous Revenue Account.
The absence of internal controls and guidelines requiring management approval makes these
transactions vulnerable to misappropriation and the IRS at risk of issuing additional erroneous
refunds.

Recommendations
The Chief, CI, should coordinate with the Commissioner, SB/SE Division, and the
Commissioner, W&I Division, to:
Recommendation 1: Develop a process to routinely and accurately account for the amount of
restitution ordered, restitution paid, and outstanding balances owed by defendants who had
restitution ordered before the August 16, 2010, I.R.C. amendment.
       Management’s Response: IRS management agreed with this recommendation.
       Policy and procedures will be developed to account for criminal restitution ordered,
       payments received, and outstanding balances owed by the defendants. The Accounting
       Unit will perform a review of the restitution General Ledger account every quarter to
       identify discrepancies in account activity. A report of the results will be provided to
       Submission Processing Headquarters for review and to resolve any discrepancies.
Recommendation 2: Ensure that, after the process is developed to accurately account for
restitution paid by a defendant, an account statement is developed, including detail information
on payments and outstanding balances, and mailed annually to defendants who had restitution
ordered before the August 16, 2010, I.R.C. amendment.
       Management’s Response: IRS management agreed with this recommendation. The
       Accounting Unit will work with CI to develop an annual notice reflecting the defendant’s
       outstanding balance due.




                                                                                            Page 9
                       Procedures Are Needed to Improve the Accounting and
                  Monitoring of Restitution Payments to Prevent Erroneous Refunds



U   Recommendation 3: Ensure that a process is negotiated with the Administrative Office that
    allows district courts nationwide to effectively provide necessary and consistent PII to the IRS,
    preferably the defendant’s last name, first name, and court docket number, to associate restitution
    payments with specific defendants.
           Management’s Response: IRS management agreed with this recommendation. A
           process was negotiated with the Administrative Office to ensure that the district courts
           nationwide would provide identifiable information on the restitution check, including last
           name, first name, and court docket number. On October 17, 2011, a letter reiterating this
           process was sent to the Administrative Office. The Submission Processing Headquarters
           staff will request an updated quarterly listing from the Administrative Office and will
           provide the updated listing to the Accounting Unit for its use in contacting the U.S.
           Courts for obtaining additional PII.
    Recommendation 4: Develop a process in the Accounting Unit to ensure employees take
    appropriate actions to obtain missing PII when the restitution payment cannot be associated with
    a specific defendant. This should also include the resolution of all previous restitution payments
    received with missing PII that were not applied to the defendant’s tax account.
           Management’s Response: IRS management agreed with this recommendation.
           Policies and procedures will be updated for Submission Processing Headquarters to
           obtain a quarterly contact list from the Administrative Office. The list will be provided to
           the Accounting Unit and will be used to obtain missing PII associated with restitution
           checks that currently cannot be traced to a specific defendant. This additional
           information will allow the payments to be properly credited to the defendant’s tax
           account.
    Recommendation 5: Strengthen internal controls to ensure adequate separation of duties in
    the Accounting Unit regarding the preparation, review, and authorization of transactions that
    transfer funds from Miscellaneous Revenue Accounts to a defendant’s tax account. This process
    should include requirements for the Accounting Unit to consult with CI in the resolution of
    inquiries regarding the accuracy of restitution payments and outstanding balances reported by
    defendants.
           Management’s Response: IRS management agreed with this recommendation.
           Current procedures require that the manager review and initial the credit transfer
           Form 2424, Account Adjustment Voucher. This is done to ensure that the individual who
           performs the journal entry on the Redesign Revenue Accounting Control System is not
           the same individual who initiated the adjustment request. The current process provides a
           clear separation of duties in initiating, reviewing, and journalizing the Form 2424.
           Existing procedures also require that the Accounting Unit consult CI in resolving
           questions of accuracy involving restitution payments and outstanding balances.


                                                                                               Page 10
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



Recommendation 6: Complete a comprehensive review of all tax accounts of defendants
with restitution ordered before the August 16, 2010, I.R.C. amendment to determine whether the
IRS has misapplied or erroneously refunded restitution payments.
       Management’s Response: IRS management agreed with this recommendation. The
       Accounting Unit will complete a comprehensive review of all accounts of defendants
       with restitution ordered prior to the August 16, 2010, I.R.C. amendment to determine if
       the payments were accurately applied to the appropriate taxpayer accounts.

Steps Can Be Taken to Improve the Monitoring of Defendants’
Adherence to Conditions of Probation and Restitution
Despite an increased emphasis over the past several years, inconsistencies continue to exist in the
IRS’s efforts to monitor defendants’ compliance with conditions of probation and restitution.
The Standards for Internal Control in the Federal Government requires that monitoring should
assess the quality of performance over time and include comparisons and reconciliations of
records and data in management information systems. Transactions should be properly recorded
to maintain their relevance and value to management in controlling operations and making
decisions.

Conditions of probation and restitution were not always included in the CIMIS
The accuracy of restitution information entered in the CIMIS by CI field office employees is
critical because it includes the defendants’ conditions of probation and restitution that require
monitoring. Guidance provided to CI employees states that coordinating and sharing this
information among the CI’s Scheme Development Center Refund Fraud Restitution Unit
(hereafter referred to as the Restitution Unit) and the SB/SE Division’s Examination and
Collection functions is essential. These functions use electronic tools and monitoring logs to
track defendants’ adherence to conditions of probation and restitution and the status of any IRS
enforcement actions taken.
We reviewed a judgmental sample of 40 defendants from a population of 1,831 defendants
sentenced during FYs 2007 through 2009 to determine if restitution orders were correctly input
in the CIMIS. Our results showed that six of
the 40 defendants’ restitution orders were not
recorded in the CIMIS. We discussed these               A sample of restitution orders from
                                                      FYs 2007 through 2009 showed one for
six defendants with CI and were provided             $173,267 was not included in the CIMIS.
information which showed five of the six
appealed their sentences. CI procedures state
that the amount of restitution ordered is not to be entered into the CIMIS until the court appeal
process is completed or has expired. The remaining defendant did not file an appeal; however,


                                                                                           Page 11
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



restitution ordered totaling $173,267 was not entered into the CIMIS until 17 months after
sentencing.
When employees do not ensure conditions of probation and restitution are properly input into the
CIMIS, CI and IRS functions cannot effectively monitor defendants’ adherence to conditions of
probation and restitution. If defendants are not meeting their conditions of probation, the period
of supervised release could expire without the IRS having any recourse to collect the restitution.
In addition, waiting until the adjudication of any appeal process to enter the conditions of
probation or restitution to the CIMIS makes the system susceptible to the omission of
information.

Accurate information was not always reflected in the Restitution Unit’s database
used to monitor restitution payments
The Accounting Unit and the Restitution Unit each use a separate stand-alone database to track
defendant data for different purposes; nevertheless, the information in both databases must be
accurate and consistent. The Accounting Unit is responsible for recording all restitution
payments received from defendants. The Restitution Unit is responsible for monitoring only
convicted tax return preparers’ compliance with their conditions of probation and restitution
because more complex monitoring is required than that for the convicted individuals who are
monitored by the SB/SE Division.
To determine if convicted tax return preparers’ payments were monitored by the Restitution
Unit, we reviewed a judgmental sample of 33 payments from a population of 11,775 payments
during FYs 2007 through 2009 that were recorded
in the Accounting Unit’s monitoring database. Our
                                                        A sample of restitution payments
research showed the 33 payments were made by
                                                           from FYs 2007 through 2009
28 convicted tax return preparers whose total               totaling $156,805 were not
payments were $310,919. We determined that              monitored by the Restitution Unit.
payments made by 24 of the convicted tax return
preparers totaling $156,805 (50 percent) were
reflected in the Accounting Unit’s database but were not reflected in the Restitution Unit’s
database. The IRS received some of these payments dating back to FY 2008.
Once the Restitution Unit begins monitoring a convicted tax return preparer, guidelines require a
letter be issued to provide a telephone number and IRS point of contact to answer any questions.
In addition, the IRS should provide status of account letters when convicted taxpayers contact
the IRS to inquire about submitted payments or outstanding balances. For the 28 convicted tax
return preparers in our sample, the IRS issued 17 (61 percent) status letters. However, our
analysis showed the outstanding balance in the status letter was incorrect for 10 (59 percent) of
the 17 convicted tax return preparers because not all restitution payments were reflected in the
Restitution Unit’s database.


                                                                                          Page 12
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



There was not an effective process for the Accounting Unit to notify the Restitution Unit that
convicted tax return preparers had made restitution payments to the IRS. For example, our
results showed that when payments were received by the Accounting Unit, the Restitution Unit
may not have become aware of the payments until months or, as in some instances in our sample,
years after receipt.
In FY 2010, the Restitution Unit obtained access to the Accounting Unit’s database to research
payment information. We agree this is a good step, but the absence of internal controls to ensure
the Restitution Unit is aware of payments received by the Accounting Unit and the use of
duplicative monitoring systems will continue to increase the chance of errors and prevent the IRS
from providing accurate account balances to convicted tax return preparers. We are not making
a recommendation regarding the accuracy of restitution payment and account balance
information because Recommendations 1 and 2 address these issues.

Restitution Unit monitoring efforts created complicated accounting procedures
that increase the risk of issuing erroneous refunds
The Restitution Unit does not have effective internal controls to monitor convicted tax return
preparers who were ordered by the courts to pay restitution. Prior to and for part of FY 2009, the
Restitution Unit used a complicated accounting procedure to monitor and account for restitution
ordered for convicted tax return preparers involved in refund schemes. This procedure requires
Restitution Unit employees to input a series of “dummy” transactions equaling the restitution
amount to the tax account of the convicted tax return preparer. The use of this procedure
increased the risk that erroneous refunds could be systematically generated.
Because a tax return preparer scheme can involve a large number of tax returns where the
individual taxpayer may or may not be involved in the scheme, it is critical that the IRS have an
effective process for monitoring restitution payments and outstanding balances to ensure the
guilty parties are not issued any erroneous refunds. During our review of the judgmental sample
of 28 convicted tax return preparers detailed in the previous section, we determined that this
******************************************1*********************************
*****************************************1*********************************
***************************************1***********************************
***********************1*****************************.
Based on these results, we expanded our judgmental sample to review an additional six
convicted tax return preparers for which the Restitution Unit used the complicated accounting
procedure. **********************************1******************************** *
**********1**********************. According to Restitution Unit guidelines, a “freeze”
code should be entered on the tax account to prevent the computer system from systemically
generating a refund. **********************************1*************************
************************************1****************************************
************************************1******************************.

                                                                                          Page 13
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



In October 2010, we brought the *******************1******************************,
*******************************************1********************************
******************************************1*********************************
********1*****************.
Management Actions: **************************1*******************************,
**********************************1*****************************************
*******************************1**********************************************
*******************************1********************************************
*******************************1**********************************************
*******************************1**********************************************
*******************************1**********************************************
*******************************1**********************************************
*******************************1**********************************************
******************************1***********************************************
****************1********************.
The complicated accounting procedure was not used for all convicted tax return preparers but,
when asked, Restitution Unit officials could not explain the criteria used to make a determination
of when or when not to use this procedure. During FY 2009, the Restitution Unit stopped using
this accounting procedure, but a decision has not been made as to whether the procedure will be
used in the future as a way to monitor and control the tax accounts of convicted tax return
preparers. As of April 2010, the IRS’s financial accounting system showed this accounting
procedure affected the tax accounts of 405 convicted tax return preparers representing
$16.4 million in restitution ordered. It is possible that erroneous refunds could still be generated
from these accounts. We believe if this process is considered for reinstatement, strong internal
controls must be established to safeguard against the issuance of erroneous refunds to convicted
tax return preparers and taxpayers involved in the refund scheme.
The SB/SE Division does not have an effective process for monitoring convicted
individuals’ adherence to conditions of probation and restitution
The SB/SE Division’s Examination and Collection functions are responsible for monitoring
convicted individuals’ compliance with restitution orders. The SB/SE Division is required to
provide a 180-calendar day memorandum to notify CI that convicted individuals’ probationary
period will expire in six months and also outline whether the conditions of probation and
restitution were met. We selected a judgmental sample of 53 convicted individuals from a
population of 2,363 in the CIMIS who were sentenced with conditions of probation and
restitution during FYs 2007 through 2009. We determined that the SB/SE Division was not
consistently providing the 180-calendar day memorandum to CI. Results of our review showed
that for 31 of the 53 convicted individuals, SB/SE Division employees were not required to
notify CI because the probationary period expiration date was still greater than six months. For
the remaining 22 convicted individuals, we found:

                                                                                            Page 14
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



   •   For 15 (68 percent), 180-calendar day memorandums were sent to CI.
   •   For seven (32 percent), 180-calendar day memorandums were not sent to CI. However,
       there was evidence in the files that the SB/SE Division was actively monitoring some of
       the convicted individuals’ adherence to conditions of probation and restitution.
In August 2009, the SB/SE Division Collection function’s IRM was revised to specifically state
that Collection employees should not wait until the 180-calendar day memorandum was due to
report defendant noncompliance, but instead should report it as soon as the noncompliance is
discovered. The Collection function’s IRM clarifies that the requirement to immediately report
defendant noncompliance is in addition to the 180-calendar day memorandum requirement.
However, the SB/SE Division Examination function’s IRM was not revised to include the
immediate notification procedure.
We also reviewed a judgmental sample of 41 convicted individuals from a population of
597 convicted individuals in the CIMIS in which the conditions of probation and restitution
expired in FY 2009. We found that 21 of the 41 convicted individuals met the conditions of
probation and restitution and that three actually had no conditions of probation and restitution
ordered by the courts even though the CIMIS data indicated otherwise. For the remaining
17 convicted individuals who did not meet conditions of probation and restitution before the
probationary period expired, we found:
   •   For 11 (65 percent), SB/SE Division personnel or the USAO determined the convicted
       individual would not be pursued based on inability to pay what was owed.
   •   For six (35 percent), SB/SE Division personnel were reviewing these convicted
       individuals to determine the appropriate enforcement action; however, the probationary
       period expired before action could be taken.
We believe the Examination function waiting to notify CI until 180 calendar days remain on the
probationary period may not allow adequate time for CI to effectively follow up with the USAO
to determine if further court action is warranted. Even though the IRS has 10 years to collect
assessed tax debts, enforcement of the conditions of probation and restitution ordered is an
important tool because if the restitution is not timely paid, the IRS can petition the court to
re-sentence a defendant for nonpayment.

Recommendations
Recommendation 7: The Chief, CI, should strengthen controls to ensure information is
timely and correctly entered into the CIMIS as soon as the IRS is notified of the conditions of
probation and restitution.




                                                                                           Page 15
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



       Management’s Response: IRS management partially agreed with this
       recommendation. CI believes that existing controls ensure that information is accurately
       and timely entered into the CIMIS. However, CI will reemphasize the importance of
       entering investigative updates by issuing a memorandum to all Special Agents in Charge.
The Chief, CI, should coordinate with the Commissioner, SB/SE Division, and the
Commissioner, W&I Division, to:
Recommendation 8: Develop and implement a plan to assess the relative costs and benefits
of creating a single, shared database that both the Restitution Unit and the Accounting Unit can
use to ensure accurate data are available to both units. The results of the assessment should be
used to determine whether the benefits would justify the costs to develop the database. If
developing a single database is not beneficial, an automated process should be developed to
routinely compare information in the two existing databases to ensure current and accurate data
are shared between the units.
       Management’s Response: IRS management agreed with this recommendation that a
       single shared database will improve the accuracy and efficiency of work performed by
       the Restitution Unit and the Accounting Unit. Both Units have already obtained access to
       the shared database application.
Recommendation 9: Strengthen controls to ensure a freeze code is immediately entered by
the Restitution Unit on the tax accounts of defendants ordered to pay restitution. In addition, the
tax accounts of defendants ordered to pay restitution should be reviewed to ensure a freeze code
is in place on the tax account.
       Management’s Response: IRS management agreed with this recommendation.
       CI has already strengthened controls by: 1) designating specific personnel within the
       Restitution Unit to place and monitor freeze controls on defendants’ accounts,
       2) requiring that freeze codes be placed on the respective defendants’ accounts within
       48 hours of receipt of the proper forms, and 3) reviewing monthly and quarterly reports to
       ensure that all defendants’ accounts have been properly marked with the appropriate
       freeze codes.
Recommendation 10: Revise the SB/SE Division Examination function’s IRM to ensure that
CI is notified immediately of a defendant’s noncompliance with conditions of probation and
restitution. The revision should also clarify that the immediate notification is in addition to the
current 180-calendar day memorandum requirement.
       Management’s Response: IRS management agreed with this recommendation.
       Current procedures will be revised to clarify that CI will be immediately notified of
       noncompliance in addition to the current 180-calendar day memorandum requirement.




                                                                                           Page 16
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



Use of Tax Refund Offsets to Collect Restitution Is Inconsistently
Applied to Defendants
The Restitution Unit uses the refund offset procedure to keep refunds of convicted tax return
preparers who owe restitution to the IRS; however, the refund offset procedure is not used for
convicted individuals. The refund offset is a statutory or common law tool the IRS is allowed to
use to retain tax refunds as payments toward, among other things, outstanding tax liabilities. Our
research of the Restitution Unit database for a 20-year period (April 1990 through April 2010)
showed the IRS offset 925 tax refunds of convicted tax return preparers totaling approximately
$1.5 million.
*************************************7**************************************
************************************7**************************************
*************************************7************************************,
*************************************7*************************************
*************************7******************************. However, since the use
of the Treasury Offset Program was not mandated, CI chose to continue using the common law
right of offset for convicted tax return preparers only. By not offsetting refunds for all
defendants who owe restitution, the IRS may be missing opportunities to use its authority to
offset refunds as a tool to collect restitution payments.

Recommendation
Recommendation 11: The Chief, CI, should obtain a comprehensive Office of Chief Counsel
opinion to determine whether the IRS should use the Treasury Offset Program before the
common law right of offset to retain refunds as restitution payments. The opinion should also
determine if the use of either refund offset can be applied to convicted individuals as well as
convicted tax return preparers. If so, procedures should be established to ensure that the
appropriate refund offset procedures are consistently used.
       Management’s Response: IRS management agreed with this recommendation.
       ******************************************7****************************
       ****************************************7******************************
       ****************************************7*****************************
       ***************************************7******************************.




                                                                                          Page 17
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



Restitution for Unpaid Taxes Was Not Always Granted in Sentences
Where It Appeared to Be Warranted
CI considers including restitution as part of a plea agreement to be an effective method to
facilitate the defendant’s cooperation in the settlement of the court case. CI guidance requires
that special agents emphasize the importance of restitution to the USAO and report the amount
of any restitution on the Form 13308, Criminal Investigation Closing Document, after a
defendant is sentenced. To determine if restitution might have been appropriate in the
sentencing, we reviewed court documents, public information, and CIMIS data for a judgmental
sample of 23 defendants from a population of 1,831 defendants sentenced without restitution
during FYs 2007 through 2009.
Our results showed nine (39 percent) of the 23 defendants had underreported income totaling
$23 million that we believe are good examples in which restitution could have been imposed as
part of the sentence. In addition, as presented in Figure 3, our analysis of the CIMIS data
showed that less than 50 percent of all tax-related court cases resulted in sentences with
restitution.
                          Figure 3: FYs 2007 Through 2009
                   Frequency of Restitution in Tax-Related Sentences




       Source: Data from CI’s CIMIS.

CI officials advised us that their influence in obtaining restitution in court sentences is limited
because the USAO has the final decision whether to recommend to the courts that a defendant
should be ordered to pay restitution. However, there are no requirements for special agents to
explain in closing documents the reasons why the USAO chose not to pursue restitution in a
tax-related prosecution. Providing the reasons for the absence of restitution on Form 13308
could provide CI an opportunity to ensure that special agents are encouraging restitution as part
of the prosecution. Further, CI could trend court cases where restitution was sought, but not

                                                                                            Page 18
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



imposed, to identify practices favored by specific district courts which could be beneficial and
increase the IRS’s ability to encourage the DOJ to use restitution as a tool to reduce the Tax Gap.

Recommendations
The Chief, CI, should:
Recommendation 12: Modify procedures requiring special agents to explain, in CI closing
documents, why restitution to the IRS was not obtained by the USAO or ordered by the courts.
       Management’s Response: IRS management agreed with this recommendation. CI
       is currently updating the Form 13308 as a result of the amendment to I.R.C. 6201(a)(4).
       This revised form will require an explanation as to why restitution was not ordered in
       cases where it is apparently appropriate.
Recommendation 13: Complete a comprehensive review of future tax-related sentences
without restitution to identify trends and factors that hinder the IRS being granted restitution in
sentences.
       Management’s Response: IRS management agreed with this recommendation.
       Once the revised Form 13308 is in use, CI will conduct a review of Forms 13308 for a
       period of six months and summarize the results.




                                                                                             Page 19
                          Procedures Are Needed to Improve the Accounting and
                     Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                                        Appendix I

              Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether defendants1 convicted of
UT




tax-related crimes are held responsible for the payment of the taxes associated with the offenses
they committed. We used judgmental sampling throughout this review because we did not plan
to project our results. We relied on data from the CIMIS; however, we did not verify the
reliability and accuracy of all data in the CIMIS due to resource constraints. In prior audits, our
overall assessment has been that the CIMIS data are of undetermined reliability. In our opinion,
using the data from the CIMIS did not weaken our analyses. We validated data pertaining to
conditions of probation and restitution information in the CIMIS through the specific test
included in this audit. To accomplish our objective, we:
     I.      Evaluated and discussed national and local procedures with CI Headquarters and field
             office personnel to determine if CI has established internal controls, procedures, and
             processes to accomplish its FY 2010 Annual Business Plan. This includes setting
             operational priorities to work with other IRS operating divisions and DOJ prosecution,
             probation, and district court partners to effectively monitor and track compliance with
             conditions of probation and restitution.
     II.     Determined if CI coordinates with the USAO and Probation Offices to ensure that
             conditions of probation and restitution were included in sentences for tax-related crimes
             when appropriate.
             A. Analyzed CIMIS data for 1,831 defendants sentenced during FYs 2007 through 2009
                who had no restitution amounts entered in the CIMIS. We reviewed a judgmental
                sample of 40 defendants, i.e., 10 defendants each from the Los Angeles, California;
                Miami, Florida; and Philadelphia, Pennsylvania, field offices and an additional
                10 defendants from among the highest estimated criminal tax deficiency amounts
                without restitution from the entire population (outside the selected field offices). We
                visited the three field offices to review files and to determine if there was an
                explanation why the sentencing did not include restitution.
             B. Researched various sources and court documents to verify the sentence given the
                defendant.
             C. Reviewed available information for a judgmental sample of 23 out of 1,831
                defendants sentenced during FYs 2007 through 2009 who had no restitution


1
      See Appendix VIII for a glossary of terms.
                                                                                                Page 20
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



          amounts entered in the CIMIS to determine if restitution appeared to have been
          appropriate and the potential effect of its omission.
       D. For any defendants in the samples who had conditions of probation and restitution
          that were not recorded in the CIMIS, determined if the sentence was monitored for
          compliance by verifying if restitution was documented in the Accounting Unit’s and
          Restitution Unit’s monitoring records and databases.
III.   Determined if CI coordinated with the SB/SE and W&I Divisions to effectively monitor
       defendants’ compliance with conditions of probation and restitution contained in
       sentences for tax-related crimes.
       A. Analyzed CIMIS data for 2,363 convicted individuals sentenced during FYs 2007
          through 2009 for whom there was a probationary period expiration date entered in the
          database.
          1. Reviewed a judgmental sample of 53 convicted individuals’ files selected from
             the three field offices we visited to evaluate court documents and other pertinent
             documentation to verify that the convicted individual was included in the
             monitoring process.
          2. Determined if the 180-calendar day memorandum was prepared before the
             expected probationary period expiration dates as appropriate.
          3. Determined if noncompliance with conditions of probation and restitution was
             promptly reported between CI and the SB/SE Division Examination and
             Collection functions.
       B. Analyzed CIMIS data for 597 convicted individuals for whom conditions of
          probation expired during FY 2009. We reviewed a judgmental sample of
          41 convicted individuals from the three field offices we visited to determine if there
          was evidence to verify whether the conditions of probation and restitution payments
          were met.
       C. Interviewed all CI and SB/SE Division Condition of Probation Coordinators in the
          three field offices visited to identify the procedures used to monitor conditions of
          probation and restitution.
       D. Interviewed two CI managers in each of the three field offices visited to determine
          what emphasis is placed on monitoring sentences with conditions of probation and
          restitution.




                                                                                          Page 21
                  Procedures Are Needed to Improve the Accounting and
             Monitoring of Restitution Payments to Prevent Erroneous Refunds



IV.   Determined whether payments of restitution forwarded to the IRS were properly
      accounted for and protected from inadvertent refund, misapplication, or misappropriation.
      A. Analyzed Accounting Unit data for 11,775 payments received by the IRS during
         FYs 2007 through 2009.
      B. Evaluated the effectiveness of internal controls in place to monitor restitution
         payments made by defendants.
         1. Conducted a walk-through of the Kansas City Campus Accounting Unit and
            Ogden Campus Restitution Unit monitoring systems.
         2. Reviewed documentation maintained in remittance/account folders for a
            judgmental sample of 33 payments (made by 28 convicted tax return preparers) to
            ensure payments were monitored and recorded. Based on our results, we
            expanded our judgmental sample to review an additional six convicted tax return
            preparers for whom the Restitution Unit used the complicated accounting
            procedure.
         3. Reviewed a judgmental sample of 90 payments (made by 62 convicted
            individuals) to determine if CI notified IRS functions that a convicted individual
            had been sentenced and ordered to pay restitution. For each convicted
            individuals’ tax accounts, we determined if the IRS completed the examination,
            made tax assessments to establish a tax liability, and applied payments to the tax
            accounts.
         4. Evaluated the process for using the refund offset to make restitution payments.
      C. Evaluated the characteristics of incoming restitution remittances in each location.
         1. Observed and reviewed all sources of restitution payments, i.e., Clerk of Court,
            Probation Office, and IRS offices.
         2. Reviewed a judgmental sample of 83 out of 11,775 payments to determine if the
            payments contained the PII needed to process restitution payments received from
            the courts.
         3. Evaluated the process used by the Accounting Unit to identify defendants when
            restitution checks received from the courts do not have sufficient PII.
      D. Evaluated existing internal controls and determined if the identified weaknesses
         increased the risk of fraud, i.e., misapplication or misappropriation of funds.




                                                                                            Page 22
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CI’s policies, procedures, and practices
relating to conditions of probation and restitution. We evaluated these controls by interviewing
CI, SB/SE Division, and W&I Division employees; analyzing data related to investigations with
conditions of probation and restitution; and reviewing the IRS’s monitoring procedures.




                                                                                         Page 23
                  Procedures Are Needed to Improve the Accounting and
             Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Bryce Kisler, Director
Doris J. Hynes, Audit Manager
Diana M. Tengesdal, Audit Manager
Timothy A. Chriest, Lead Auditor
John J. Chiappino, Senior Auditor
Margaret F. Filippelli, Senior Auditor
Gwendolyn M. Green, Senior Auditor
Michael J. Hillenbrand, Senior Auditor
Jeff K. Jones, Senior Auditor
Janis Zuika, Senior Auditor




                                                                                      Page 24
                  Procedures Are Needed to Improve the Accounting and
             Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Director, Collection-Field, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Fraud/Bank Secrecy Act, Small Business/Self-Employed Division SE:S:F/BSA
Director, Refund Crimes, Criminal Investigation SE:CI:RC
Director, Strategy, Criminal Investigation SE:CI:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Field Director, Submission Processing (Kansas City), Wage and Investment Division
SE:W:CAS:SP:KC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS
       Chief, GAO/TIGTA/Legislative Implementation, Small Business/Self-Employed
       Division SE:S:CLD:PSP:GTL
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                 Page 25
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Actual; **************************1*****************
    ***************************************1*******************(see page 4).

Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 90 payments (made by 62 convicted individuals) from a
population of 11,775 payments made during FYs 2007 through 2009 that were recorded in the
Accounting Unit’s monitoring database. For each convicted individuals’ tax account, we
determined if the IRS completed the examination, made tax assessments to establish a tax
liability, and applied payments to the tax accounts. We identified four convicted individuals who
received erroneous refunds totaling $282,470 which represented restitution payments that were
previously paid to the IRS. The erroneous refunds occurred because the IRS had not made a tax
assessment to the convicted individuals’ tax account. Analysis of the tax accounts showed **1*
***********************************1******************************************
********************1********************.

Type and Value of Outcome Measure:
•   Revenue Protection – Actual; 16 taxpayers and ********************1************
    ***********************1******************** (see page 11).

Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 33 payments (made by 28 convicted tax return preparers)
from a population of 11,775 payments made during FYs 2007 through 2009 that were recorded
in the Accounting Unit’s monitoring database to ensure restitution payments were recorded and
being monitored. **************************1***********************************
*****************************************1**********************************
***************************************1***********************************
****1*******************, we expanded our judgmental sample to review an additional six
convicted tax return preparers where the complicated accounting procedure was also used. We

                                                                                          Page 26
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



identified *************************************1*******************************
*****************************************1*******************************
***************************************1**************************************
***************************************1**************************************
***************************************1**************************************
*********************************1*****************************************.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; the IRS had *****************1*****************
    $330,072 **********1***************** and 24 convicted tax return preparers sentenced
    to pay restitution in its monitoring systems (see page 11).

Methodology Used to Measure the Reported Benefit:
We reviewed a judgmental sample of 40 defendants from a population of 1,831 who were
sentenced during FYs 2007 through 2009 to determine if the defendants’ conditions of probation
and restitution were correctly input to the CIMIS. We identified ***********1************
*****************************************1********************************.
We also reviewed a judgmental sample of 33 payments, made by 28 convicted tax return
preparers, from a population of 11,775 payments made during FYs 2007 through 2009 that were
recorded in the Accounting Unit’s monitoring database to determine if payments were also
recorded and monitored in the Restitution Unit’s database. We then identified all the restitution
payments made by the 24 convicted tax return preparers, which totaled $310,919. Analysis of
these payments showed that $156,805 (50 percent) of the $310,919 restitution payments made by
24 of the 28 convicted tax return preparers were reflected in the Accounting Unit’s database, but
were not reflected in the Restitution Unit’s database.




                                                                                         Page 27
                     Procedures Are Needed to Improve the Accounting and
                Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                                            Appendix V

                      Accounting Unit’s Process to
                    Account for Restitution Payments

All restitution paid to the IRS is processed by one designated IRS W&I Division Accounting
Unit that receives payments from the courts in the form of U.S. Treasury checks. Figure 1 shows
the IRS’s Accounting Unit process for recording and depositing restitution payments received
from the courts on behalf of defendants.
                                Figure 1: Accounting Unit Steps for
                                  Processing Restitution Payments




Source: TIGTA’s assessment of the IRS’s Accounting Unit process for restitution payments.




                                                                                                 Page 28
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                  Appendix VI

      Audit Alert Memorandum –
   *****************1********************
       ************1********************




    *********************1*******************




                                                         Page 29
      Procedures Are Needed to Improve the Accounting and
 Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                  Appendix VII

       Audit Alert Memorandum –
       **********1***********************
     ************1***********************


*********************1**********************




                                                          Page 30
                   Procedures Are Needed to Improve the Accounting and
              Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                                                Appendix VIII

                                Glossary of Terms

Accounting Unit – IRS function responsible for recording and monitoring restitution payments
received from defendants and convicted tax return preparers.
Assess/Assessment – The statutorily required recording of a tax liability. This generally
happens when the IRS determines the taxpayer owed more taxes than reported on the tax return.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Common Law Right of Offset – Right of offset is the common-law right of every creditor to
recover a debt owed through a deduction from an amount the creditor is due to pay the debtor.
Convicted Individual – In the context of this report, an individual (or business owner)
sentenced for an individual tax-related crime where only his or her own tax return or tax account
is affected.
Convicted Tax Return Preparer – In the context of this report, a tax return preparer found
guilty of a tax-related refund scheme. These refund schemes can involve a large number of tax
returns where the individual taxpayer(s) whose return(s) was used in the scheme may or may not
be involved in the scheme.
Criminal Investigative Management Information System (CIMIS) – A database that is used
by CI to track the status and progress of investigations and the time expended by special agents.
Defendant – In the context of this report, defendant is defined to include both individual
taxpayers who were convicted of a tax-related crime (referred to as “convicted individuals”) and
tax return preparers who were convicted of a tax-related refund scheme (referred to as “convicted
tax return preparers”).
Docket Number – Unique identifying number assigned by a court to a specific court case. The
docket is a log containing the complete history of each court case in the form of brief
chronological entries summarizing the court proceedings.
Erroneous Refund – Incorrect refunds issued to taxpayers due to processing errors, misapplied
payments, incorrect tax adjustments, taxpayers filing fraudulent tax returns, or using an incorrect
Taxpayer Identification Number.




                                                                                           Page 31
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Internal Revenue Code – Federal tax law enacted by Congress in Title 26 of the United States
Code (26 U.S.C.). It is the codified collection of U.S. laws on income, estate and gift,
employment and excise tax, plus administrative and procedural provisions.
Levy – A levy generically refers to seizure of property to collect a debt. For tax debts, it is the
legal process by which the IRS orders a third party to turn over property in its possession,
e.g., the Federal Government payment, that belongs to the tax debtor.
Lien – Under 26 U.S.C. Section 6321 (Supp IV. 2010), the IRS has the authority to attach a
claim to the taxpayer’s assets for the amount of unpaid tax when the taxpayer neglects or refuses
to pay.
Personally Identifiable Information – A combination of taxpayer information used to uniquely
identify a person, i.e., name, SSN, and address.
Probation – Sentencing option in the Federal courts. With probation, instead of sending an
individual to prison, the court releases the person to the community and orders him or her to
abide by certain conditions and complete a period of supervision monitored by a probation
officer.
Probation Officer – Officers of the Probation Office of a court. Probation officer duties include
conducting pre-sentence investigations, preparing pre-sentence reports on defendants, and
supervising released defendants.
Prosecution – The act of initiating civil or criminal court action against someone charged with a
crime. A prosecutor tries a criminal court case on behalf of the Federal Government.
Refund Offset – A taxpayer’s overpayment applied to any outstanding Federal tax or various
nontax obligations instead of crediting the overpayment to the taxpayer’s future tax or making a
refund to the taxpayer.
Restitution – A legal remedy that can be ordered in a criminal court case. A restitution order
requires the defendant to pay money to the victim(s) in order to compensate for the loss inflicted.
It is generally imposed during sentencing as a condition of probation or supervised release in
tax-related crimes.
Restitution Unit – IRS function responsible for monitoring only convicted tax return preparers’
compliance with their conditions of probation and restitution
Sentence – The punishment ordered by a court for a defendant convicted of a crime.
Special Agents – A law enforcement employee who investigates potential criminal violations of
the Internal Revenue laws and related financial crimes.

                                                                                             Page 32
                    Procedures Are Needed to Improve the Accounting and
               Monitoring of Restitution Payments to Prevent Erroneous Refunds



Special Tax-Related Provisions – Requirements included in criminal sentences, such as filing
past due and current tax returns and paying or making arrangements to pay past due taxes.
Supervised Release – Term of supervision served after a person is released from prison. The
court imposes supervised release during sentencing in addition to the sentence of imprisonment.
Supervised release does not replace a portion of the sentence of imprisonment but is in addition
to the time spent in prison. Probation officers supervise people on supervised release.
Tax Case – A criminal tax case involves tax offenses and tax-related offenses. A tax offense
refers to criminal offenses under the I.R.C. Tax offenses include, but are not limited to, willful
attempt to evade or defeat tax, willful failure to collect or pay over taxes, willful failure to file
or failure to pay, and willfully making a false declaration under penalties of perjury or willfully
assisting in the preparation of a false document.
Tax Gap – The difference between the amount taxpayers owe and the amount they voluntarily
and timely paid for a tax year.
Tax-Related – A tax-related offense may fall under either Title 18 or Title 31 of the United
States Code when the offense is associated with a tax crime or the offense impedes the
administration of the Internal Revenue laws. Examples of tax-related offenses include, but are
not limited to, false statements on a tax return; presenting a false, fictitious, or fraudulent claim
for a refund; conspiracy to defraud the IRS; and willful violations of reporting requirements.
Treasury Offset Program – The Treasury Offset Program is a centralized offset program,
administered by the Financial Management Service’s Debt Management Services, to collect
delinquent debts owed to Federal agencies and States (including past-due child support).
United States Attorney – A lawyer appointed in each judicial district to prosecute and defend
court cases for the Federal Government. The U.S. Attorney employs a staff of Assistant
U.S. Attorneys who appear as the Federal Government’s attorneys in individual court cases.




                                                                                               Page 33
        Procedures Are Needed to Improve the Accounting and
   Monitoring of Restitution Payments to Prevent Erroneous Refunds



                                                     Appendix IX

Management’s Response to the Draft Report




                                                            Page 34
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 35
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 36
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 37
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 38
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 39
                     Procedures Are Needed to Improve the Accounting and
                Monitoring of Restitution Payments to Prevent Erroneous Refunds


 
RESPONSIBLE OFFICIAL

Director, Technical Services, Small Business/Self-Employed Division (SB/SE)

CORRECTIVE ACTION MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.

IDENTITY OF RECOMMENDATION #11
The Chief, IRS-CI should obtain a comprehensive Office of Chief Counsel opinion to determine
whether the IRS should use the Treasury Offset Program before the common law right of offset to
retain refunds as restitution payments. The opinion should also determine if the use of either
refund offset can be applied to convicted individuals as well as convicted tax return preparers. If
so, procedures should be established to ensure that the appropriate refund offset procedures are
consistently used.

CORRECTIVE ACTION
Criminal Investigation agrees with the recommendation and has already received the Office of
Chief Counsel opinion. **************7**************************
***********************************7************************************
***********************************7******************************************
******************************7**********************************.

IMPLEMENTATION DATE
Implemented

RESPONSIBLE OFFICIAL
Director, Refund Crimes, Criminal Investigation

CORRECTIVE ACTION MONITORING PLAN
N/A

IDENTITY OF RECOMMENDATION #12
Modify procedures requiring special agents to include, in IRS-CI closing documents,
explanations as to why restitution to the IRS was not obtained by the USAO or ordered by the
courts.

CORRECTIVE ACTION
Criminal Investigation agrees with this recommendation. Criminal Investigation is currently
updating the IRS-CI closing Form 13308 as a result of the amendment to I.R.C. 6201 (a)(4). This
updated form will require an explanation as to why restitution was not ordered in cases where it is
apparently appropriate.

IMPLEMENTATION DATE
June 15, 2012




                                                                                          Page 40
     Procedures Are Needed to Improve the Accounting and
Monitoring of Restitution Payments to Prevent Erroneous Refunds




                                                         Page 41
